HHS/OIG, Audit -"Credentialing and Privileging Practices at IHS Crow/Northern Cheyenne Hospital,"(A-07-03-00159)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Credentialing and Privileging Practices at IHS Crow/Northern Cheyenne Hospital," (A-07-03-00159)
June 13, 2005
Complete
Text of Report is available in PDF format (237 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Crow/Northern Cheyenne Hospital located in Crow Agency, Montana
had completed the credentialing, privileging, and personnel suitability reviews for its medical practitioners.  For
more than half of the practitioners tested, we found that the hospital did not perform a complete credentialing
review or initiate the required personnel suitability review.  The hospital did not verify the
credentials of three-quarters of the sampled practitioners before they provided patient care, did not
issue current privileges for 20 percent, and did not have information indicating that it had requested
background investigations from the Office of Personnel Management (OPM) for 55 percent of practitioners.
We recommended that IHS direct Crow/Northern Cheyenne Hospital to: (1) take action necessary to ensure
the credentialing and privileging reviews are completed in a timely manner, and (2) initiate the required
OPM background investigations for its practitioners.  In written comments, IHS stated that all
recommended corrected actions had been taken.